  Lq#$..                                          NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS
   4
     0                                       CLOSEOUT MEMORANDUM
       b4 D


 Case Number: A07080043                                                                      Page 1 of 1



                  Our office reviewed an allegation of plagiarism based upon a proactive review
          conducted by NSF OIG. Based on an analysis of a proposal', it appeared that a small
          amount of text had been plagiarized from four sources. We wrote to the PI and CO-PI~  to
          obtain their perspective on the allegation.

                  The co-PI provided a letter from a former collaborator who was the author of one
          of the sources. The collaborator expressed his permission to use the text from that source
          document. The PI offered that similar text from the other three documents was common
          language and offered several examples of where similar text could be found in other
          published articles.

                   We analyzed other NSF proposals authored by the PI and Co-PI determine if there might
          'be a pattern or history of plagiarism by the Subjects. Our analysis revealed no apparent
           plagiarism in those proposals. Therefore, we determined there was no substance to the
           allegation and accordingly, this case is closed.




          I
          2




NSF OIG Fonn 2 ( l 1/02)
                                                        -   .-                                             ."
